AUDIT OF THE U.S. DEPARTMENT OF 

    JUSTICE’S OVERSIGHT OF 

NON-FEDERAL DETENTION FACILITY 

          INSPECTIONS


        U.S. Department of Justice 

      Office of the Inspector General 

               Audit Division 


            Audit Report 13-06 

              January 2013

AUDIT OF THE U.S. DEPARTMENT OF JUSTICE’S OVERSIGHT
  OF NON-FEDERAL DETENTION FACILITY INSPECTIONS

                        EXECUTIVE SUMMARY

        The Department of Justice (DOJ) is responsible for providing secure
detention space for criminal defendants who have been arrested or detained
pending the disposition of their cases. DOJ utilizes private facilities and
intergovernmental agreements (IGA) with state and local detention facilities
to aid in housing the growing number of federal detainees, which DOJ
projects to be approximately 65,000 detainees, on average, per day in fiscal
year (FY) 2013. To help ensure that these non-federal detention facilities
are safe, secure, and humane, DOJ components conduct inspections of the
facilities’ compliance with established detention standards and conditions of
confinement. During FY 2012, the Office of the Federal Detention Trustee
(OFDT) and the United States Marshals Service (USMS) had primary
responsibility for these inspections with oversight by the Office of the Deputy
Attorney General (ODAG). According to DOJ officials, on October 1, 2012,
the OFDT was merged into the USMS.

      The OIG performed this audit to determine if DOJ’s oversight efforts
ensure a safe, secure, and humane environment for federal detainees
housed in non-federal detention facilities. We focused our efforts on non-
federal detention facility inspections conducted between FY 2006 and
FY 2010. The audit found that while DOJ employed basic standards to
evaluate the conditions of non-federal detention facilities, based upon the
standards established by the American Correctional Association, the OFDT
and the USMS applied the basic standards differently depending upon the
type of inspection being conducted. A review by the OFDT typically took
3 days, while a review by the USMS typically took only 2 hours.

        The audit also found that the OFDT and USMS used separate processes
to determine which of the approximately 1,100 non-federal detention
facilities to review during a given fiscal year. Neither process incorporated a
risk-based assessment to ensure that facilities most in need of review were
prioritized. For example, when deciding which facilities to review, the OFDT
did not consider whether a facility had recently been inspected and received
favorable reviews. Of the OFDT’s inspection of 34 unique facilities during
our review period, 17 had received a rating of either good or acceptable
during at least 2 consecutive years. Despite the favorable ratings, the OFDT
selected and reviewed 13 of these 17 facilities for a third consecutive year.
The USMS, by contrast, intended to annually review all of its IGA facilities.
However, it did not have a sufficient system to ensure that the annual
reviews actually occurred.1 We identified 63 instances between FY 2006 and
FY 2010 where the USMS failed to perform an annual inspection of a facility
with an average daily population of at least 200 detainees. Further, an in-
depth look at these 63 instances revealed that 13 unique facilities had not
been inspected during at least 2 consecutive years of our review period,
including 2 facilities that were not inspected at all between FY 2006 and
FY 2010.2

        Moreover, the OFDT and USMS did not adequately coordinate their
selection processes for inspections, resulting in the inefficient use of
resources. The OFDT conducted 142 inspections of non-federal detention
facilities between FY 2006 and FY 2010. In 70 of those 142 instances, the
USMS reviewed the same facility during the same fiscal year.3 According to
the USMS, local governments expressed frustration with multiple inspections
by different entities because of the disruption to the facilities’ operations. In
addition, it is inefficient for both the OFDT and USMS to expend resources to
conduct separate and uncoordinated inspections of the same facility during
the same year. The OFDT spent approximately $3.5 million to conduct
inspections of the 70 facilities that the USMS also reviewed. Further, of the
70 duplicate inspections, we determined that in 51 instances the OFDT and
USMS reports contained inconsistent evaluation results.

        We also noted a lack of coordination on the resolution of deficiencies
identified during inspections. OFDT officials explained that the USMS
oftentimes does not ensure its state and local IGA facilities take corrective
action on deficiencies identified during the OFDT’s inspections. USMS
officials explained that in some locations available detention space is scarce,
that the USMS cannot tell state and local governments how to operate their
facilities, and in some instances the USMS must meet the demands of the
federal judiciary regarding the location of detainees. Nonetheless, we
believe that failing to ensure that facilities take corrective action on
identified weaknesses wastes taxpayer dollars and could jeopardize the
safety and security of federal detainees.

       1
          The data in the USMS’s system for tracking its inspection activities was not
complete. This was due, in part, to a USMS policy in effect during part of our review period
that allowed the USMS to accept state level inspections in lieu of USMS-conducted
inspections. However, the USMS did not fully document the extent of this activity.
       2
         Although the USMS did not inspect two facilities at all during our review period, we
found that the OFDT conducted inspections of the two facilities during each fiscal year from
FY 2008 through FY 2010.
       3
        If the USMS met its goal of reviewing every facility every year, then duplication
would have regularly occurred if the OFDT also conducted reviews. However, we found that
the USMS did not meet its goal during the years we reviewed.


                                            - ii -
       In FY 2012, DOJ proposed to move the OFDT into the USMS. This
organizational change has taken place and will result in changes to the non-
federal detention facility inspection practices throughout DOJ. We believe that
the findings detailed in our report should be considered as DOJ moves forward
in its decision-making processes regarding the management of activities related
to federal detainees. Our audit resulted in seven recommendations to improve
DOJ’s oversight of non-federal detention facilities.




                                   - iii -
This Page Intentionally Left Blank.
AUDIT OF THE U.S. DEPARTMENT OF JUSTICE’S OVERSIGHT
  OF NON-FEDERAL DETENTION FACILITY INSPECTIONS

                                TABLE OF CONTENTS

INTRODUCTION ................................................................................ 1
 
  Organizational Structure of DOJ Components ...................................... 2
 
  OIG Audit Approach......................................................................... 4


FINDING AND RECOMMENDATIONS.................................................. 6
 
Lack of Coordinated DOJ Approach ................................................... 6
 
  Detention Standards........................................................................ 6
 
  Selection Criteria for Conducting Inspections .................................... 10
 
  Duplicate and Inconsistent Evaluations............................................. 16
 
  Resolving Identified Deficiencies ..................................................... 20
 
  ODAG Involvement ....................................................................... 23
 
  The Future ................................................................................... 24
 
  Recommendations......................................................................... 25


STATEMENT ON INTERNAL CONTROLS............................................ 26


STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ...... 27


APPENDIX I:           OBJECTIVE, SCOPE, AND METHODOLOGY................ 28 


APPENDIX II:          UNITED STATES MARSHALS SERVICE RESPONSE ... 30 


APPENDIX III: OFFICE OF THE DEPUTY ATTORNEY GENERAL 

  RESPONSE ................................................................................. 33 


APPENDIX IV: OFFICE OF THE INSPECTOR GENERAL 

  ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO

  CLOSE THE REPORT.................................................................... 35
 
This Page Intentionally Left Blank.
                                    INTRODUCTION

        The Department of Justice (DOJ) is responsible for providing secure
detention space for criminal defendants who have been arrested or detained
pending the adjudication of their cases. In its fiscal year (FY) 2013 budget
request, DOJ stated that its law enforcement initiatives have improved the
nation’s security and made communities safer, resulting in an increased
need for additional prison and detention capacity.4 DOJ utilizes private
facilities and intergovernmental agreements (IGA) with state and local
detention facilities for the housing and safekeeping of federal detainees and
prisoners.5 During FY 2010, DOJ spent over $1.24 billion to house, on
average, 59,138 federal detainees in approximately 1,100 non-federal
detention facilities.6 DOJ projected that the average daily detention
population would be nearly 65,000 detainees in non-federal detention
facilities for FY 2013. To help ensure that non-federal detention facilities are
safe, secure, and humane, two DOJ components, the Office of the Federal
Detention Trustee (OFDT) and the United States Marshals Service (USMS),
had primary responsibility for conducting inspections of the facilities’
compliance with established detention standards and conditions of
confinement.7 According to DOJ officials, on October 1, 2012, the OFDT was
merged into the USMS.

     The purpose of this audit was to determine if DOJ’s oversight efforts
ensure a safe, secure, and humane environment for federal detainees
housed in non-federal detention facilities. We reviewed the applicable

       4
         U.S. Department of Justice, “FY 2013 Budget & Performance Summary,”
http://www.justice.gov/jmd/2013summary (accessed June 22, 2012).
       5
         IGAs are formal agreements between a DOJ component and a state or local
government in which the state or local government agrees to house federal detainees and
prisoners at an agreed-upon daily rate. A detainee is a criminal defendant held in custody
awaiting adjudication. A prisoner has been found guilty and sentenced to incarceration. Of
DOJ’s average daily detention population of 59,138 detainees in FY 2010, 20 percent were
housed in private facilities or state and local IGA facilities managed by the OFDT, and
62 percent were housed in IGA facilities for which the USMS was responsible for the
agreement. The remaining 18 percent were housed in facilities for which the Federal
Bureau of Prisons (BOP) or the Department of Homeland Security, Immigration and
Customs Enforcement were responsible for the agreement.
       6
           FY 2010 is the last year for which complete and reliable data is available.
       7
         The BOP’s primary mission is to house incarcerated federal prisoners, and
therefore, the BOP does not play an active role in inspecting the non-federal detention
environments of federal detainees. As a result, this report contains BOP-specific information
only where it is relevant to our review of non-federal detention facility inspections. The
primary subjects of our report are the OFDT and USMS.
detention standards for the non-federal detention facilities, as well as the
USMS’s and OFDT’s processes for conducting inspections of those facilities.
We also obtained listings of the inspections conducted by the USMS and
OFDT during FY 2006 through FY 2010, and reviewed a sample of the
inspection reports. In addition, we observed a sample of the actual
inspections conducted by the USMS and OFDT of non-federal detention
facilities.

Organizational Structure of DOJ Components

        During the period under review, the USMS, OFDT, and BOP were
primarily responsible for the Department’s detention efforts. The USMS was
responsible for holding federal criminal detainees while courts adjudicate
their cases, and the OFDT assisted in the management of detainees housed
in non-federal facilities. The BOP played a supporting role by housing some
federal detainees in detention units in BOP correctional facilities. The Office
of the Deputy Attorney General (ODAG) was responsible for overseeing
DOJ’s detention efforts. The USMS, OFDT, and BOP conducted independent
inspections to ensure the safety and security of the non-federal detention
facilities DOJ used.

USMS

       In FY 2003, the USMS re-established its Conditions of Confinement
Program, which is managed by its Prisoner Operations Division. The overall
mission of this program is to monitor non-federal detention facilities that
house USMS detainees and ensure that the facilities are safe, secure, and
humane and protect the detainees’ statutory and constitutional rights. The
USMS requires each of its 94 districts to conduct annual inspections of actively
used state and local detention facilities within its jurisdiction.8 These
inspections are to be completed by the end of each fiscal year. The U.S.
Marshal generally assigns one Deputy U.S. Marshal to conduct the inspection
of a facility, and each on-site inspection usually lasts approximately 2 hours.
The USMS’s inspections are conducted based upon the standards identified in
the Conditions of Confinement Program. The Prisoner Operations Division
provides training to the Deputy U.S. Marshals on how to conduct the
inspections and performing these inspections is a collateral duty for the
Deputy U.S. Marshals. Because the inspections are a collateral duty, there
are no specific costs factored into the USMS Prisoner Operations Division’s
budget for conducting the inspections.


       8
          The number of state and local facilities used by the USMS varies among districts
because within each district, the U.S. Marshal is responsible for determining the specific
locations where federal detainees will be confined.


                                           - 2 -

OFDT

      Established by the Attorney General in September 2001, the OFDT was
created pursuant to a Congressional directive to “exercise all power and
functions authorized by law related to the detention of Federal prisoners in
non-Federal institutions or otherwise in the custody of the United States
Marshals Service.”9 Specifically, the OFDT was established to manage and
plan for detention resources without unnecessary duplication of effort.10 The
OFDT’s mission was to develop DOJ detention policy, manage federal
detention resources to maximize available detention space, and provide
oversight of detention management and coordinate detention activities with
federal agencies involved in detention to provide for the safe, secure, and
humane confinement of federal detainees.

      Although the USMS is the primary DOJ entity responsible for arranging
for DOJ detainee housing, the OFDT negotiated a small number of
agreements with private, state, and local facilities for the housing of DOJ
detainees throughout our review period. In FY 2011, the OFDT was
responsible for the agreements with 4 state or local facilities and for the
contract of 14 private detention facilities. According to the OFDT, it
managed detention contracts with private jail facilities and, when special
circumstances existed, negotiated IGAs with state and local facilities. Such
special circumstances could be an instance where a critical need for bed
space exists in a geographic area or when the OFDT was believed to be in
the best position to negotiate an agreement and achieve economies of scale.
The OFDT was responsible for managing the agreements it awarded.

      In FY 2006, the OFDT established its Quality Assurance Review (QAR)
Program to ensure the adequacy and sufficiency of the services provided by
these non-federal detention facilities. Through its QAR Program, the OFDT
conducted an annual review of all private, state, and local facilities under
agreement with the OFDT, as well as a selection of state and local facilities
under agreement with the USMS. OFDT officials explained that the Federal
Acquisition Regulation requires annual contract monitoring to ensure
compliance with the contract’s terms and conditions. These officials stated
that the OFDT conducted annual QARs of the private facilities to fulfill this

       9
            Pub. L. 106-553, App. B, 114 Stat. 2762A-52 (2000).
       10
          At the time of the OFDT’s establishment, the Immigration and Naturalization
Service (INS) was a component of DOJ, and it was responsible for alien detainees.
Therefore, two DOJ components (both the USMS and INS) had federal detainees who were
being housed in non-federal detention facilities. In FY 2003, INS was transferred to the
Department of Homeland Security (DHS). Alien detainees are now the responsibility of
DHS’s Immigration and Customs Enforcement.


                                            - 3 -

requirement. The OFDT contracted with private companies that provided
subject-matter experts to conduct the on-site reviews and budgeted
approximately $50,000 for each review. A QAR team of one senior project
manager and four subject-matter experts generally conducted each
inspection, which lasted approximately 3 days.

BOP

        The BOP plays a small role in the inspection of non-federal detention
facilities. The BOP holds IGAs with state, local, and private facilities for the
incarceration of federal prisoners already convicted and sentenced. In
FY 2011, the BOP actively used about 166 state and local facilities to house
federal prisoners.11

       BOP Community Corrections Managers and Contract Specialists perform
annual inspections of all state and local facilities with which the BOP has
agreements to house federal prisoners. If the BOP piggybacks on a state and
local facility for which the USMS is responsible for the agreement, the BOP will
inspect that facility once every 3 years. For the 2 intervening years, the BOP
requests a copy of the USMS’s inspection of the state and local facility.
Personnel within BOP’s Community Corrections Office are dedicated to
conducting the inspections of state and local facilities used by the BOP. A BOP
official stated that there are no specific identified costs associated with
conducting these inspections because the inspections are a part of the staff’s
normal responsibilities, and the costs are not broken out in the budget.

OIG Audit Approach

      The OIG performed this audit to determine if DOJ’s oversight efforts
ensure a safe, secure, and humane environment for federal detainees
located in non-federal detention facilities.

      To accomplish this objective, we interviewed 28 officials from the USMS,
OFDT, BOP, ODAG, and the Department of Homeland Security (DHS),
Immigration and Custom Enforcement (ICE) to obtain information regarding
each component’s involvement in the use and oversight of non-federal
detention facilities. We also reviewed the detention standards that DOJ
components use to assess the approximately 1,100 actively used non-federal
detention facilities, as well as each component’s inspection process that
incorporates those standards. We examined the OFDT’s inspection reports for
the reviews it conducted of non-federal detention facilities during FY 2006

       11
          The USMS does not perform inspections of facilities for which the BOP is
responsible for the agreement.


                                           - 4 -

through FY 2010, as well as a sample of the USMS inspection reports for the
same time period. Further, we analyzed the USMS average daily prisoner
population data and researched pertinent litigation against DOJ regarding
non-federal detention facilities. In addition, we observed two inspections
conducted by the OFDT and two inspections conducted by the USMS.12




      12
          We observed the inspection of the Maryland Correctional Adjustment Center in
Baltimore, Maryland, for which the OFDT entered into an IGA, as well as the inspection of
the Robert A. Deyton Facility in Lovejoy, Georgia, which is an OFDT-contracted private
detention facility. The two USMS IGA facility inspections we observed were at the McHenry
County Jail in Woodstock, Illinois, and the Porter County Jail in Valparaiso, Indiana.


                                          - 5 -

                  FINDING AND RECOMMENDATIONS

       Lack of Coordinated DOJ Approach

       We found that DOJ’s process for ensuring its federal detainees
       are housed in safe, secure, and humane non-federal detention
       facilities could be improved. The different DOJ components
       involved in reviewing the conditions of non-federal detention
       facilities had their own process for conducting these inspections
       without sufficient coordination with the other components’
       efforts. As a result, the non-federal detention facility
       inspections varied in thoroughness depending upon which
       component performed the review. Moreover, we found that
       more than one DOJ component was evaluating the same non-
       federal detention facility during a given fiscal year, and that
       some of these facilities received inconsistent findings. We
       believe that DOJ needs to provide more oversight on the
       inspections of non-federal detention facilities to: (1) ensure
       federal detainees are housed in safe, secure, and humane
       environments; and (2) ensure components are using limited
       resources in the most efficient manner possible.

Detention Standards

       In 2000, DOJ created a working group comprised of the USMS, INS,
and BOP to develop a common set of standards for evaluating the conditions
of non-federal detention facilities. The goal of the working group was to
identify common functional areas that all three agencies shared and to
develop standards that would help ensure non-federal detention facilities
housing federal detainees were safe, secure, and provided basic services in a
humane fashion. On November 14, 2000, DOJ adopted a set of standards
for all detention facilities not operated by, but rather were under contract or
agreement with the USMS, INS, and BOP, and these standards are referred
to as the Core Detention Standards. The Core Detention Standards include
59 individual elements encompassing 9 common functional areas, and the
standards are similar in nature to the criteria established by the American
Correctional Association.13



       13
           The American Correctional Association is a professional organization that supports
the cause of corrections and correctional effectiveness. According to the American
Correctional Association, its standards are considered the national benchmark for the
effective operation of correctional systems throughout the United States and ensure that
correctional facilities are operated professionally.


                                            - 6 -

      In 2002, following its creation, the OFDT established another working
group to develop a revised set of standards because, as explained by a
senior OFDT official, the Core Detention Standards did not provide reviewers
with a consistent approach for evaluating facilities. The group, led this time
by the OFDT, was again comprised of individuals from the USMS, INS, and
BOP. The working group reviewed the existing standards and identified
requirements that were consistent among the components. By 2004, the
working group developed the Federal Performance-Based Detention
Standards that include 58 elements grouped into the same 9 functional
areas as the Core Detention Standards and a detailed checklist of over
1,000 total line items for these 58 elements.14

      The OFDT revised the Federal Performance-Based Detention Standards
as necessary to coincide with changes in industry standards and the
enactment of new laws. For example, the standards were updated to
include requirements related to the Prison Rape Elimination Act.15 The
OFDT’s inspections of detention facilities were conducted using the Federal
Performance-Based Detention Standards.

      However, the USMS had not adopted the Federal Performance-Based
Detention Standards for its detention facility inspections. Instead, the USMS
continued to use the Core Detention Standards that were developed in 2000.
According to a senior USMS official, the documents used by the OFDT and
USMS have similar foundations, but that the existence of two standards
documents can be confusing and unclear. This official further stated
someone could mistake the two documents as being two different sets of
standards.

      In addition, a USMS official responsible for facility inspections stated
that DOJ components referred to the American Correctional Association
standards during the development of the Core Detention Standards.
However, this official stated that the USMS had not revised the Core
Detention Standards to reflect any subsequent changes to the American
Correctional Association standards.

       14
          The Core Detention Standards address juvenile detainee needs in the Services
and Program functional area, while the Federal Performance-Based Detention Standards do
not contain criteria for juvenile detainees under this functional area. This accounts for why
the Core Detention Standards have one more element than the Federal Performance-Based
Detention Standards.
       15
           Congress enacted the Prison Rape Elimination Act in September 2003.
42 U.S.C. § 147 (2003). The purpose of this act includes, among other items: (1) making
the prevention of prison rape a top priority in each prison system; and (2) developing and
implementing national standards for the detection, prevention, reduction, and punishment
of prison rape.


                                            - 7 -

      According to executives at the USMS and the OFDT, the different
standards documents have the same foundation and are based upon the
same nine functional areas, which the USMS Director and the Federal
Detention Trustee commonly referred to as “the detention standards.”
However, each component applied the basic standards differently to coincide
with the type of inspections being performed. As described below, the
inspections that were performed using the documents varied in
thoroughness.

       The Federal Performance-Based Detention Standards, which include
over 1,000 line items for review at a facility, provide for an extensive and
comprehensive assessment for each of the nine functional areas. According
to officials at both the OFDT and the USMS, this thorough review was
designed for the inspection of contract facilities and was to be performed to
evaluate contract compliance. The OFDT also conducted the same type of
thorough review of certain USMS IGA facilities. The OFDT’s reviews on
average took 3 days to complete.

      The USMS’s inspections, which were based on the Core Detention
Standards document, were not as thorough as those conducted by the
OFDT. This difference was also acknowledged by a senior USMS official who
said the USMS conducts “cursory” reviews that did not generally require
USMS personnel to test a facility’s procedures and protocols. Using the Core
Detention Standards document, the USMS developed a form (USM-218) to
guide the jail inspectors and to document the reviews of detention facilities.
The USMS’s inspections on average took 2 hours to complete.

        The BOP, which also inspects detention facilities, utilized its
Community Corrections Manual for inspections of state, local, and private
facilities. Within the manual, which became effective on January 12, 1998,
there were different contract monitoring instruments that were designed to
assist the BOP in conducting program evaluations based on contract
requirements. One of the monitoring instruments was the Contract Jail
Services Monitoring Instrument, which was to be used for facilities where the
BOP was listed as an authorized user of another federal agency’s agreement
for bed space. The Contract Jail Services Monitoring Instrument contained
two sections that were equivalent to the nine functional areas included in the
Core Detention Standards and the Federal Performance-Based Detention
Standards documents. The BOP’s inspections on average took 1 to 3 days to
complete.

      USMS, OFDT, and BOP officials said that the components applied the
basic detention standards differently because the components have different
functions within the detention environment. As noted above, the OFDT


                                    - 8 -

designed the Quality Assurance Reviews based upon the Federal
Performance-Based Detention Standards for the purpose of monitoring
contract compliance of private detention facilities. The USMS’s application of
the Core Detention Standards and use of the USM-218 form in reviewing
state and local jails with which the USMS has an agreement for the use of
jail bed space were designed to provide the USMS assurance that the
facilities meet the basic standards. The USMS further explained that these
facilities are often regulated by state-level requirements and oversight.

      The USMS and OFDT also had contrasting philosophies on legal liability
and the different application of facility standards. Officials from the USMS
Prisoner Operations Division explained that the USMS’s inspection program
supports the USMS’s position that limiting the scope of inspections minimizes
the agency’s legal liability. The USMS Office of General Counsel (OGC)
explained that the USMS is not liable for negligent acts committed by a state
or local IGA facility or for any claim of negligence in connection with the
USMS’s selection or inspection of an IGA facility. The USMS OGC also
indicated that higher standards for utilizing local jail facilities must be
weighed against the willingness of local jail facilities to undergo such
inspections and to contract with the USMS. According to the USMS OGC, the
USMS only requires that certain basic standards be met.

       The USMS OGC further explained that the USMS conducts its
inspections for the purpose of providing each district’s United States Marshal
with the information and tools to assess where to house USMS detainees
within each district. The USMS OGC stated that the USMS’s inspections are
not intended to be an accreditation of the facilities or a determination that
the jail is compliant with all standards. Rather, the USMS OGC explained
that the inspection is but one tool in the USMS’s determination of whether to
utilize the facility, and that the USMS is not a standards-enforcement
authority.

       In contrast, a senior OFDT official stated he believed that conducting a
more in-depth review using the Federal Performance-Based Detention
Standards limited DOJ’s legal liability. In this official’s opinion, conducting a
more thorough inspection afforded DOJ the opportunity to take corrective
action on any identified unsafe, insecure, or inhumane conditions that
otherwise would go unnoticed. Moreover, if conditions changed and a facility
fell out of compliance with the Federal Performance-Based Detention
Standards, DOJ could rely upon the thoroughness of its review to support
that the condition causing the incident was not present at the time of the
inspection.




                                      - 9 -

Selection Criteria for Conducting Inspections

       Each component established a process for determining which
non-federal detention facilities it would review during a given fiscal year.
However, we found that there had been some disagreement over the types
of facilities that would be reviewed by the OFDT. In addition, both the OFDT
and USMS did not meet their goals for the number of reviews to be
conducted. Moreover, we believe that DOJ could enhance the selection
processes by implementing a more risk-based and coordinated approach
that would also result in the more efficient use of resources.

OFDT Selection Methodology

     The OFDT conducted annual inspections of a sample of non-federal
detention facilities. The facilities selected for review could be divided into
two groups: (1) non-federal detention facilities for which the OFDT was
responsible for the agreements, and (2) non-federal detention facilities for
which the USMS was responsible for the agreements.

      Regarding the first group of facilities, the OFDT’s goal was to annually
review all private detention facilities under contract with the OFDT and all
state and local facilities for which the OFDT established the agreement. The
OFDT’s contracts with the private detention facilities required such an annual
inspection to be conducted, which OFDT officials explained was to ensure
compliance with the Federal Acquisition Regulation. The OFDT’s agreements
with state and local governments also had the same requirement.

       The other group of non-federal detention facilities that the OFDT
inspected was facilities for which the USMS executed an IGA with a state or
local government. The OFDT selected these facilities to review based upon
the number of detainees housed in the facility. The OFDT categorized the
USMS’s facilities into large, medium, and small facilities through use of the
prior fiscal year’s average daily detainee population data.16

      According to a June 2009 OFDT operating procedure, the OFDT
reviewed USMS data to identify all large USMS IGA facilities that were then
added to the OFDT’s schedule of annual reviews. The policy also stated that
the Assistant Trustee who was responsible for overseeing the QAR Program
could include on the schedule other USMS IGA facilities that house an
average daily population of 400 or more detainees. The Federal Detention

       16
           A facility housing an average of 480 or more detainees per day was categorized
as a large facility, while one that houses between 200 and 479 detainees per day was
considered a medium facility. Any facility housing fewer than 200 detainees per day, on
average, was classified as a small facility.


                                          - 10 -
Trustee confirmed the selection of USMS IGA facilities for review by
explaining that the OFDT reviewed large USMS facilities and others by
special request or need.

        According to the USMS, the OFDT was expanding its QAR Program
from larger contract facilities to smaller state and local detention facilities.
In a July 2010 letter to the Federal Detention Trustee, the USMS advised the
OFDT that the USMS was not in agreement with this expansion to smaller
facilities. According to the letter, the USMS did not take issue with the
OFDT’s inclusion of large state and local facilities in the OFDT’s inspection
program; however, the USMS letter did take issue with the OFDT’s plan to
expand its inspections to mid-size or smaller facilities.

      The disagreement between the components continued into FY 2011.
In March 2011, the USMS again sent a letter to the Federal Detention
Trustee expressing its concern with the OFDT’s expansion of the inspection
program to smaller facilities. In this letter, the USMS stated that it would
not support the application of the Federal Performance-Based Detention
Standards to certain facilities, particularly smaller facilities or those having
received acceptable ratings in previous years.

      Although OFDT officials involved with the QAR Program did not
specifically state that the QAR Program was being expanded, they advised
that the OFDT attempted to review all large and medium USMS IGA facilities,
as well as small USMS IGA facilities when it received a request from the
USMS or if a significant event occurred at such a facility. By selecting all
large and medium USMS IGA facilities, the OFDT would be conducting a
review of those facilities housing, on average, at least 200 detainees per
day, which was not in agreement with the OFDT’s operating procedure.
These individuals explained that by reviewing all large and medium USMS
IGA facilities, the OFDT would maximize the impact of its reviews on the
population of federal detainees.

       According to the USMS and OFDT, the conflict between the two
components had abated, and the relationship issues that once existed had
been mended. The USMS and OFDT advised that they planned to establish a
working group that would further enhance the components’ coordination
efforts. According to USMS officials, the working group would work to clarify
issues relating to the standards documents used by the USMS and OFDT and
to increase coordination related to the components’ facility inspections. As
of April 2012, the working group was still in the conceptual stages.
However, at the formal exit conference in September 2012, a senior USMS
official advised the OIG that this working group’s efforts had been delayed
due to the pending transition of the OFDT into the USMS.


                                      - 11 -
OFDT Inspections Conducted

       Using a list of all OFDT and USMS facilities used to house federal
detainees between FY 2006 and FY 2010, the OIG identified the total
number of actively used non-federal detention facilities by type of facility
and compared that information to the actual inspections conducted by the
OFDT between FY 2006 and FY 2010. Exhibit 1-1 displays the total number
of active facilities by type and the actual number of inspections conducted by
the OFDT.

                                EXHIBIT 1-1 

                      OFDT INSPECTIONS CONDUCTED 

                            FY 2006 – FY 2010

                         Large     Medium      Small
               OFDT      USMS       USMS       USMS
              Facility  Facility   Facility   Facility                                                                   Total
              Conducted17




                                       Conducted




                                                              Conducted




                                                                                     Conducted




                                                                                                             Conducted
                            Universe




                                                   Universe




                                                                          Universe




                                                                                                  Universe




                                                                                                                             Universe
   FY
  2006                  4          5           8    16                6       26             3   1,002            21         1,049
  2007                  5          9      13        14                6       27             2   1,010            26         1,060
  2008            10          12               8         9            7       31             2   1,021            27         1,073
  2009            16          14               5         9       10           34             3   1,038            34         1,095
  2010            14          17               8    11           10           26             2   1,045            34         1,099
 TOTAL         49           57          42         59          39         144         12         5,116       142            5,376
Source: OIG analysis of the OFDT’s QAR Program data and the USMS’s average daily
population data

      Although the OFDT’s operating procedure did not require an annual
inspection of medium and small USMS IGA facilities, the OIG determined
that the OFDT had conducted inspections on 39 medium USMS IGA facilities
and 12 small USMS IGA facilities throughout our review period, as shown in
the preceding Exhibit 1-1. In addition, the OIG identified that the OFDT
generally did not conduct annual inspections of each OFDT facility used
during our review period nor did the OFDT inspect all of the large USMS IGA

       17
           In FY 2009, the OFDT conducted two “after-action” reviews of facilities that had
already undergone a regularly scheduled inspection. After-action reviews were performed
following a significant event, such as an escape. As a result of these two after-action
reviews, the number of OFDT inspections conducted exceeded the number of OFDT facilities
in FY 2009.


                                                               - 12 -
facilities that were used during FY 2006 through FY 2010. For instance, the
OFDT was responsible for the contract or agreement at 17 facilities during
FY 2010 and conducted an inspection on 14 of those facilities. Similarly, in
FY 2009, the OFDT conducted a review on 5 of the 9 large USMS IGA
facilities. OFDT officials explained that budget limitations prevented the
OFDT from conducting a quality assurance review of every OFDT private and
IGA facility, as well as every large USMS IGA facility.

       Because the OFDT cited budget limitations as a primary factor
restricting its ability to accomplish its goals, we believe that the OFDT should
have taken a more strategic approach to its facility selection, thereby
leveraging its resources to provide better coverage of facilities reviewed.

      The OFDT generally reviewed the same facility each year without
consideration of previous inspections of those facilities. For instance, three
private facilities were in existence since FY 2006, and the OFDT reviewed
two of those facilities every year between FY 2006 and FY 2010. Senior
OFDT officials explained that the private facility contracts included a clause
requiring an annual inspection of the facility. In addition, USMS facilities
categorized as large facilities generally maintained similar population sizes
from year to year; therefore, there was little variance in the USMS facilities
selected for OFDT inspections.

      Between FY 2006 and FY 2010, the OFDT conducted a total of
142 quality assurance reviews. These 142 reviews were at 47 different
non-federal detention facilities. Of the 47 facilities, 34 (or 72 percent) were
reviewed more than once during this time period. We analyzed the ratings
of those facilities that were reviewed more than once and found that 17 of
the 34 non-federal detention facilities received a rating of either good or
acceptable during at least 2 consecutive years. Despite the favorable
ratings, the OFDT selected and reviewed 13 of the 17 facilities for a third
consecutive year.

        We believe that the OFDT could have enhanced its inspection process
by incorporating a more risk-based approach for selecting facilities to
review, which could have also resulted in the more efficient and effective use
of resources. The OFDT would have been able to better prioritize the
facilities it reviewed through the use of a more strategic selection process.
For instance, if a facility continually obtained an acceptable rating, it seems
reasonable that the risk of deficiencies surfacing at the facility during
ensuing years would have been lower, thus not warranting another review
for a period of time. If reviews of acceptable facilities were conducted less
often, the OFDT would have had the ability to provide more attention to
facilities that did not score as highly in the inspection process. By using a


                                     - 13 -
more risk-based, strategic approach, we believe the OFDT could have made
more efficient use of its resources and possibly reviewed a larger number of
facilities over multiple years, thus expanding the overall confidence that a
greater number of facilities provided a safe, secure, and humane
environment for federal detainees.

      An OFDT official explained that the OFDT’s methodology was designed
in an effort to provide broad coverage of detainees housed in non-federal
detention facilities and cover approximately 50 percent of DOJ’s federal
detainee population. We analyzed average daily detainee population data
and computed that the OFDT’s inspections during FY 2006 through FY 2010
accounted for between 21 and 34 percent of the federal detainee population.
As a result, during our review period, the OFDT had not conducted
inspections of non-federal detention facilities accounting for between
66 percent and 79 percent of DOJ detainees. OFDT officials indicated that
there was potential for modifying the private facility contracts to allow for in-
depth inspections to be suspended if the facility was rated acceptable for
2 consecutive years.

USMS Selection Methodology

        According to a senior USMS official, the USMS intended to annually
review all of the state and local facilities that it uses. The USMS did not
achieve its goal during any fiscal year of our review period, having
conducted inspections of only between 31 percent and 89 percent of its
facilities.




                                     - 14 -
                                  EXHIBIT 1-2 

                     USMS INSPECTIONS OF STATE AND LOCAL 

                                  FACILITIES 

                              FY 2006 – FY 201018





               Source: OIG analysis of the USMS’s inspection data


        As shown in Exhibit 1-2, the USMS generally increased the number of
inspections conducted each year. Although the USMS’s rate of completion
was only 31 percent in FY 2006, its completion rate generally increased since
that time and in FY 2010 the USMS reviewed 909, or 84 percent, of its
1,083 actively used facilities. USMS officials stated that the IGA facility
inspections are a corollary duty for Deputy U.S. Marshals and that the
Prisoner Operations Division sends annual reminders to the district offices to
reiterate the responsibilities for IGA facility inspections. Moreover, senior
USMS officials believe that the USMS was reviewing its regularly used IGA
facilities, and that those not being reviewed likely were facilities that housed
very few detainees for a short period of time.

       The USMS has a database that lists its actively used IGA facilities and
the corresponding average daily detainee population at those facilities. The
USMS also has a rudimentary database listing its inspections of IGA facilities.
However, these two databases are not interrelated or interconnected, and
the USMS, therefore, cannot easily identify which actively used facilities
have not been inspected during a given fiscal year. Because of this database
limitation, we were unable to conduct a complete analysis on all actively
used USMS IGA facilities. Instead, we focused on those facilities housing, on
average, at least 200 federal detainees per day. Between FY 2006 and

       18
          The USMS stated that the data it provided on the number of inspections
conducted during FY 2006 through FY 2008 was incomplete. The USMS explained that
USMS district offices were allowed to accept state inspections of state and local IGA facilities
under certain circumstances through April 2008, but that these inspections were not fully
captured in the USMS’s inspection database.


                                            - 15 -
FY 2010, we identified 63 instances where the USMS failed to inspect
facilities with an average daily detainee population of 200 or more detainees.
An in-depth look at these 63 instances revealed that 13 unique facilities had
not been inspected during at least 2 consecutive years of our review period,
including 2 facilities that were not inspected at all by the USMS between
FY 2006 and FY 2010 despite having housed an average of at least
200 detainees per day during that period. We did find, however, that the
OFDT had inspected those particular facilities during the appropriate fiscal
year in 29 of the 63 instances, including inspections of the two previously
mentioned facilities during each fiscal year from FY 2008 through FY 2010.19

      The USMS’s goal of 100 percent inspection did not provide any
allowance for prioritizing facilities that may have been missed in previous
years because the goal did not acknowledge that facilities might not be
inspected during a given fiscal year. The USMS could improve its inspection
program by establishing, within its overall goal of reviewing all facilities each
year, requirements to prioritize the facilities not inspected in previous years
and ensure facilities are reviewed at least once within a specified time
period.

      Similarly, we believe that the USMS should prioritize its inspections
using the ratings of its previous inspections of the same facilities.
Incorporating inspection results into the scheduling of inspections will help
ensure that facilities found to have deficiencies are re-inspected at an
appropriate interval. This will help ensure that corrective action is taken and
lessen the risk of housing detainees in unsafe environments.

      We recommend that non-federal detention facility inspections are
scheduled using a risk-based selection process. Prioritizing inspection efforts
could also allow the USMS to devote more time to the inspections it decides
to conduct, thus resulting in the more effective and efficient use of its
resources.

Duplicate and Inconsistent Evaluations

      In addition to their separate facility inspection programs, the OFDT
and USMS did not coordinate their review efforts well, and as a result, there
were numerous instances in which a facility had been inspected separately
by both the USMS and OFDT during the same fiscal year. We also found



       19
           For the 63 instances in which the USMS did not conduct an inspection of a facility
housing an average of at least 200 detainees per day, the OFDT did not conduct inspections
of these facilities in 34 of the 63 instances.


                                           - 16 -
that the inspection reports associated with these duplicate reviews
sometimes contained inconsistent ratings for the facilities.

Duplicate Evaluations

     As shown in Exhibit 1-1, the OFDT conducted 142 inspections between
FY 2006 and FY 2010. Of those 142 inspections, we identified 70 instances
where the USMS also conducted a review of the same facility during the
same fiscal year as shown in Exhibit 1-3.20

                                 EXHIBIT 1-3 

                      NUMBER OF FACILITIES REVIEWED BY

                          BOTH THE OFDT AND USMS 

                              FY 2006 – FY 2010 





             Source: OIG analysis of OFDT and USMS facility inspection data


      At times, the USMS conducted its inspection of a facility at the same
time the OFDT was conducting its inspection. We found that the USMS and
OFDT conducted 6 of the 70 duplicate inspections simultaneously. Local
governments expressed displeasure with being continually inspected by
numerous entities. According to a July 2010 USMS letter, local governments
indicated that multiple inspections by various federal entities disrupted their
detention facilities’ operations. As a result, the local governments often


      20
           We counted each instance where the USMS and OFDT inspected the same facility
in the same fiscal year as one duplicate review. For example, if the USMS and OFDT both
inspected Facility X during FY 2007, we counted it as one duplicate inspection. However,
the same facility may have been inspected by both the USMS and OFDT in more than one
fiscal year. For example, if the USMS and OFDT both inspected Facility X and Facility Y
during FY 2008 and FY 2009, we counted it as 4 duplicate inspections although those
4 duplicate inspections encompassed only 2 unique facilities.


                                           - 17 -
requested that the federal government combine inspections as much as
possible, as well as accept each other’s or a state inspection.

       Besides the concerns of local governments, it does not seem prudent
for two components to have spent resources to conduct separate and
uncoordinated inspections of the same facility given current budget
constraints. As mentioned, each OFDT inspection cost approximately
$50,000. Therefore, the OFDT spent approximately $3.5 million to conduct
inspections of the same facilities that the USMS also reviewed. The USMS’s
inspections are conducted as a corollary duty and therefore do not have an
identified cost. However, each USMS inspection consumed about 2 hours of
staff time, and we believe that there may be opportunities for at least a
portion of these resources to be more effectively used to ensure other
non-OFDT reviewed facilities are inspected before well-performing institutions
are reviewed twice.

        The USMS and OFDT should have better coordinated their efforts.21 If
both components intended to inspect the same facility, then the components
should have, if feasible and appropriate, planned to conduct the inspection
jointly. The Department should have determined if there was a need for each
component to expend limited resources to conduct inspections of the same
facility whether those inspections were done simultaneously or separately.
DOJ should have also been fiscally responsible and ensured that these two
components used their limited resources in the most efficient and effective
manner.

Inconsistent Ratings

        Upon comparing the evaluations of the 70 duplicate inspections, we
found 51 instances where the inspections identified different results for the
same facility. For example, we identified that the OFDT conducted an
inspection of a facility in June 2010 and found that the facility was deficient
in several areas, including security and control, safety and sanitation, and
workforce integrity. The OFDT issued its report to the USMS on August 24,
2010. The USMS then forwarded the OFDT’s report to its Central District of
California office for delivery to the facility. The USMS inspected this same
facility on August 27, 2010, and indicated that the facility was compliant in
each of the areas that the OFDT had found deficiencies. Exhibit 1-4
illustrates the inconsistent ratings between the OFDT and USMS inspections.



      21
         If the USMS met its goal of reviewing every facility every year, then duplication
would have regularly occurred if the OFDT also conducted reviews. However, we found that
the USMS did not meet its goal during the years we reviewed.


                                         - 18 -
                               EXHIBIT 1-4 

                     COMPARISON OF FACILITY RATINGS

                            FY 2006 – FY 2010 





           Source: OIG analysis of OFDT and USMS facility inspection data


       The same facilities receiving different ratings during the same fiscal
year raises concern. We determined that in 32 of the 70 duplicate
inspections, the OFDT identified deficiencies, while the USMS indicated that
the facilities were in compliance with detention standards. In contrast, we
identified only four instances where the USMS’s inspection reports noted
deficiencies and the OFDT’s reports did not. The remaining 34 instances
were comprised of either: (1) both components finding a facility to be in
compliance with detention standards, or (2) the components both identifying
deficiencies but within different areas of the detention standards.

       There may be several reasons for the different ratings, including the
timing of the reviews, the standards used, and the experience level of those
conducting the inspections. First, the OFDT and USMS may have assigned a
different rating to the same facility due to the span of time between the
components’ inspections. A facility may have corrected the deficiencies
identified by one reviewing entity before the review by the second entity
occurred.

      Another factor contributing to the inconsistent ratings is simply the
coincidence that a deficiency was present during one component’s inspection
and not during the other’s inspection. Also, because the OFDT inspections
were planned well in advance and USMS inspections were performed in a
more ad hoc manner, facilities were likely more prepared for an OFDT
inspection than they were for one performed by the USMS.




                                         - 19 -
        Another possible explanation for the different ratings for the same
facility may have been the standards used for inspecting the facilities and
the experience level of those conducting the inspections. The Federal
Performance-Based Detention Standards used by the OFDT were more
detailed and comprehensive than the Core Detention Standards used by the
USMS. Therefore, the inspections conducted in accordance with the Federal
Performance-Based Detention Standards were more thorough and in turn,
more likely to identify potential deficiencies.

      The difference in the thoroughness can also be seen in the length of
time it took for the OFDT and USMS to conduct the inspections. The OFDT
inspection teams were generally on-site for 3 days to conduct the inspection.
In contrast, the USMS inspections took about 2 hours. Finally, the
experience level of the individuals conducting the inspections varied. The
OFDT used four to five contracted subject-matter experts who each had a
minimum of 10 years of correctional experience. The USMS inspections
were usually performed by one entry-level Deputy U.S. Marshal, and the
USMS provided basic training to those conducting the inspections.

Resolving Identified Deficiencies

        In addition to the lack of coordination regarding the selection of
facilities and performance of inspections, we also noted a lack of
coordination on the resolution of deficiencies identified during inspections.
The OFDT issued its report on USMS IGA facilities to USMS headquarters.
OFDT and USMS officials said that the USMS was then responsible for
responding to the OFDT’s report and ensuring the facility took appropriate
measures to correct the identified deficiencies. The OFDT requested that the
USMS follow up with the applicable facilities within 30 days.

       OFDT officials explained their belief that the USMS often did not follow
up to ensure OFDT-identified deficiencies were addressed. These OFDT
officials further stated that they reminded the USMS in instances where the
USMS failed to follow up on identified deficiencies but those efforts did not
result in the USMS providing the requested corrective action plans. When
the OFDT determined that their efforts to provoke action by the USMS had
become futile, OFDT “closed” the report. According to OFDT documentation,
the OFDT closed 32 of the 36 reviews of USMS facilities conducted in
FY 2009 and FY 2010 because of the USMS’s non-responsiveness.22



       22
           Of the 32 reports without USMS follow-up, 15 reports identified the facility as
deficient or at-risk, and 17 reports identified the facility as acceptable. When facilities are
rated acceptable, the report may still identify areas that could be improved.


                                             - 20 -
        Our review of OFDT facility inspection reports revealed numerous
instances in which the OFDT inspected USMS IGA facilities multiple times
and identified repeat deficiencies. The fact that subsequent inspections
included repeat deficiencies indicates that the USMS had not ensured the
facilities had taken corrective action on previously identified deficiencies.
Further, the OFDT continued to conduct reviews at these facilities even
though the USMS did not ensure the facilities had resolved previously
identified deficiencies.

        Failure to ensure that identified deficiencies are resolved increases the
risk that a significant incident may subsequently occur. This could endanger
the safety of the federal detainees housed at the non-federal detention
facility found to need improvement. For example, the OFDT conducted a
review of a USMS facility in FY 2010 and identified several concerns, one of
which related to the sufficiency of cells used for suicidal detainees. In
August 2010, the OFDT provided the USMS with its QAR report.23 The report
detailed that the rooms identified for housing suicidal detainees had not
been modified to be suicide resistant and could be used to commit suicide by
hanging. In addition, the report noted that in June 2009, a federal detainee
had successfully committed suicide by hanging at the facility.

      According to the OFDT, the USMS did not follow up with the facility
regarding the FY 2010 review even after the OFDT sent the USMS a
reminder in September 2010 identifying QAR reports for which the OFDT had
not received a response from the USMS. The USMS acknowledged that it
received the report in August 2010 and that the report noted concerns
regarding the sufficiency of cells used for suicidal detainees. However, the
USMS stated that the OFDT did not request the facility to create a corrective
action plan to address this noted concern, and that the USMS did not take
any further action to ensure the concern was corrected. In December 2011,




       23
           The QAR report states that the inspection identified areas of non-compliance to
the Federal Performance-Based Detention Standards, including key findings or deficiencies
in five functional areas. In addition to these key findings and deficiencies, the report
discussed other noted concerns, one of which was the cells identified for suicidal detainees
were not sufficiently suicide resistant. Although these issues were identified during the
inspection, the facility received an overall rating of acceptable. The OFDT defines an overall
performance rating of acceptable as one where the program is meeting the requirements of
the Federal Performance-Based Detention Standards, any lapses in internal controls are
minimal, and key findings and deficiencies do not affect the performance of the facility.
According to OFDT officials, if the inspection had identified a deficiency related to life safety,
the QAR team would have remained on-site until the facility had corrected the identified
deficiency.


                                             - 21 -
a suicide by hanging occurred at that facility in a general population cell.24
Following the suicide, the USMS assisted the OFDT in completing an after-
action review to identify any areas of non-compliance to key functional areas
of the Federal Performance-Based Detention Standards document. This
after-action review identified a deficiency in the sufficiency of cells for
suicidal detainees similar to the finding originally reported in the OFDT’s
August 2010 QAR report. In addition, in May 2012, the OFDT conducted
another inspection of the facility and reported that the facility had corrected
the previously identified concern related to the sufficiency of cells used for
suicidal detainees.25 We concluded that this incident dramatically
demonstrates the need to ensure that identified deficiencies and concerns
are promptly resolved.

       USMS officials explained that the USMS enters into agreements, not
contracts, with state and local facilities. These officials stated that as a
result, the USMS cannot tell state and local governments how to operate
their facilities. Because the USMS has limited authority over the state and
local jail facilities, the USMS officials acknowledged that the USMS does not
always ensure jail facilities adequately address the OFDT’s report findings,
which are founded on a more thorough evaluation instrument. However, the
USMS officials explained that the USMS’s IGA facility inspections ensure
state and local facilities are meeting the basic requirements for ensuring
federal detainees are being housed in safe, secure, and humane
environments.

      In a July 2010 letter to the OFDT, the USMS expressed its concern
with the OFDT’s expansion of the QAR Program to smaller IGA facilities. The
USMS stated that such an expansion would cause a significant negative
impact on the USMS’s daily prisoner operations. According to USMS officials,
the USMS oftentimes does not have alternate options for housing federal
detainees because of limited bed space or demands placed on the USMS by
the federal judiciary. USMS officials explained that the USMS can and has
removed its detainees from state and local facilities found, through


       24
           The cell modification to prevent suicides suggested by the OFDT report in
August 2010 was directed at cells designated for holding detainees designated as a suicide
risks and not at the general population cells. Thus, the modification suggested in the
August 2010 report would not have applied to the room where the suicide occurred in
December 2011. Nevertheless, we find it troubling that this recommendation was not
addressed until after the OFDT completed its January 2012 after action review of the
December 2011 suicide.

       25
           The May 2012 QAR report did not identify any deficiencies or noted concerns
associated with cells housing the general population or with those used to house detainees
designated as a suicide risk.


                                          - 22 -
inspections or regular visits to the facility to transport detainees, to pose a
threat to the welfare of detainees. However, the USMS officials stated that
the USMS cannot remove federal detainees every time a facility is found to
be deficient based upon the more in-depth OFDT inspection, especially when
the facility is in compliance with the basic detention standards or
state-mandated standards.

ODAG Involvement

       The weaknesses reported above have contributed not only to an
inefficient use of government resources, but also to the heightened risk that
federal detainees are being housed in detention facilities that are not safe,
secure, and humane. The Office of the Deputy Attorney General (ODAG),
which oversees DOJ’s detention efforts, should provide greater oversight on
the inspection of non-federal detention facilities in order to ensure that
resources are not wasted and that facilities are safe, secure, and humane.

       We met with an ODAG official to obtain information about the
oversight provided to the components in the area of detention facility
inspections and ensuring non-federal detention facilities provide a safe,
secure, and humane environment for federal detainees. We learned that the
ODAG official was aware that components were using different approaches
for facility inspections and that the ODAG was aware of an instance in which
inspectors from multiple agencies, unbeknownst to each other, separately
arrived to perform a detention facility inspection at the same time.

       Additionally, the ODAG official informed us that, as a result of this
duplication of effort, a working group with DOJ components and ICE began
meeting in December 2010 to standardize the quality assurance reviews as
an interagency process with the goal that other components would accept
the results of a review that was conducted by another component or perform
joint inspections. As noted previously, DOJ undertook similar attempts in
2000 and 2004 to develop common baseline standards for conducting
inspections of non-federal detention facilities. Despite the formation of
these previous working groups, the use of varying standards and approaches
has continued to exist among DOJ components.

      Between January and May 2011, the new working group met to review
and discuss a draft consolidated inspection worksheet. However, in
May 2011 the working group disbanded because the USMS and ICE
expressed reservations with the unified inspection instrument and
conducting joint inspections, stating that the plans did not address their
component-specific needs. Following the disbanding of the working group,
OFDT officials advised that in September 2011, the Federal Detention


                                    - 23 -
Trustee developed a charter for a joint review program that sets forth the
goals, membership, and operating guidelines for the heads of the
components involved in the area of detention operations. For example, the
charter outlines six goals, including to: (1) develop and utilize a common
core set of federal detention standards, (2) coordinate review schedules that
reduce the duplication of reviews, and (3) develop and utilize a unified
database of findings and corrective actions. As of April 2012, only the OFDT
had signed the charter. As previously reported in the Selection Criteria for
Conducting Inspections section of this report, another working group
(separate and distinct from the one for which only the OFDT has signed the
charter) was in the conceptual stages, and OFDT and USMS executives
stated that this working group would address various issues related to the
functions of the OFDT and USMS. However, at the formal exit conference in
September 2012, a senior USMS official stated that this working group’s
efforts had been placed on hold because the OFDT will be merged into the
USMS in FY 2013.

The Future

      In FY 2012, DOJ officials formally requested a reorganization whereby
OFDT’s functions would be transferred to the USMS. DOJ officials estimated
that this transition would result in efficiencies in human and physical capital
and save DOJ $5.6 million. According to DOJ officials, on October 1, 2012,
the OFDT was merged into the USMS.

        The merger will impact the future of detention facility inspections in
DOJ because there no longer will be two primary components inspecting
non-federal detention facilities. Instead, these activities will all be
performed under the auspices of the USMS. The USMS should establish
overall guidance for its inspections of non-federal detention facilities. The
guidance should establish general expectations for a baseline number of
facilities to be reviewed each year, how often individual facilities should be
inspected, the general depth of the review to be conducted, and the required
follow-up on inspection results. We believe that the guidance could be
flexible to allow the USMS to conduct inspections of varying degrees of
thoroughness dependent upon factors, such as facility type, inspection
history, and level of facility use. Once this guidance is developed, ODAG
officials should ensure that all detention facility inspection policies and
procedures are congruent throughout DOJ and are consistent with DOJ’s
expectations.




                                     - 24 -
Recommendations

      We recommend that the USMS:

1.	   Establish and promulgate guidance on the standards to use when
      conducting inspections of non-federal detention facilities and the depth
      to which these inspections will be conducted.

2.	   Establish and promulgate guidance for a risk-based selection process
      that includes a baseline number of facilities to be reviewed each year
      and how often individual facilities should be inspected.

3.	   Establish and promulgate procedures for taking corrective action on
      deficiencies identified during inspections of non-federal detention
      facilities.

4.	   Identify actively used non-federal facilities that have not been
      reviewed in the last 3 fiscal years and prioritize these inspections as
      appropriate.

5.	   Develop a mechanism to track and monitor its inspection activities
      accurately and adequately in order to assist in scheduling inspections,
      identifying facilities in need of inspections, and analyzing the results of
      inspections.

6.	   Determine if private facility contracts should be modified to allow for
      less comprehensive inspections for contract compliance of facilities
      repeatedly receiving acceptable ratings.

      We recommend that the ODAG:

7.	   Review the policies and procedures established by the USMS and
      ensure that policies related to the inspection of non-federal detention
      facilities are congruent throughout DOJ and are consistent with DOJ’s
      expectations.




                                     - 25 -
              STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objective. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of the OFDT’s, USMS’s, and BOP’s
internal controls was not made for the purpose of providing assurance on the
agencies’ internal control structures as a whole. OFDT, USMS, and BOP
management are responsible for the establishment and maintenance of
internal controls.

       Through our audit testing, we did not identify any deficiencies in the
OFDT’s, USMS’s, or BOP’s internal controls that are significant within the
context of the audit objective and based upon the audit work performed that
we believe would affect the OFDT’s, USMS’s, or BOP’s ability to effectively
and efficiently operate, to correctly state financial and performance
information, and to ensure compliance with laws and regulations. However,
we did identify weaknesses related to the processes the OFDT and USMS use
to select detention facilities for inspection and the USMS’s process for
following up on OFDT inspection reports. These matters are discussed in
detail within our report.

      Because we are not expressing an opinion on the OFDT’s, USMS’s, or
BOP’s internal control structure as a whole, this statement is intended solely
for the information and use of these DOJ components. This restriction is not
intended to limit the distribution of this report, which is a matter of public
record.




                                    - 26 -
                  STATEMENT ON COMPLIANCE

                 WITH LAWS AND REGULATIONS 


       As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objective, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that
OFDT, USMS, and BOP management complied with federal laws and
regulations, for which noncompliance, in our judgment, could have a
material effect on the results of our audit. OFDT, USMS, and BOP
management are responsible for ensuring compliance with applicable federal
laws and regulations. In planning our audit, we identified the following laws
and regulations that concerned the operations of the auditees and that were
significant within the context of the audit objective:

     18 U.S.C. § 4013 (2002)


     28 C.F.R. Part 0 (2006)


      Our audit included examining, on a test basis, the OFDT’s and USMS’s
compliance with the aforementioned laws and regulations that could have a
material effect on OFDT’s or USMS’s operations, through examining average
daily prisoner population data, collecting and analyzing the OFDT’s quality
assurance review reports and the USMS’s inspection reports, interviewing
OFDT, USMS, BOP, and ODAG personnel, and observing two OFDT quality
assurance reviews and two USMS IGA facility inspections. Nothing came to
our attention that caused us to believe that the OFDT or the USMS was not
in compliance with the aforementioned laws and regulations.




                                   - 27 -
                                                                 APPENDIX I 



            OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

      The objective of the audit was to determine if DOJ’s oversight efforts
ensure a safe, secure, and humane environment for federal detainees
located in non-federal detention facilities.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective.

       To accomplish our audit objective, we interviewed 27 officials from the
OFDT, USMS, BOP, and Department of Homeland Security’s Immigration and
Custom Enforcement to obtain insight into each component’s process for
inspecting non-federal detention facilities and their coordination efforts with
each other. We also interviewed an ODAG official about DOJ’s expectations
of the inspection process, as well as the history of DOJ’s detention standards
and associated working groups. In addition, we reviewed documentation
related to the inspections of non-federal detention facilities, including the
policies and procedures used by DOJ components in conducting the
inspections, as well as the Core Detention Standards and the Federal
Performance-Based Detention Standards documents. We also reviewed the
American Correctional Association’s standards, which DOJ referred to when
establishing the basic detention standards for components to use.

        To assist in understanding the OFDT’s and USMS’s inspection
processes, we observed two OFDT quality assurance reviews and two USMS
IGA facility inspections. Specifically, we observed the OFDT’s review of the
Maryland Adjustment Correction Center (an OFDT IGA facility) in Baltimore,
Maryland, and the Robert Deyton Detention Facility (a private detention
facility) in Lovejoy, Georgia. We observed the USMS’s inspection of two
USMS IGA facilities – the McHenry County Jail in Woodstock, Illinois, and the
Porter County Jail in Valparaiso, Indiana.

      We also obtained and analyzed data sets associated with the number
of non-federal detention facilities used by DOJ to house federal detainees,
the average daily population of federal detainees housed in non-federal


                                    - 28 -
detention facilities, and the non-federal detention facility inspections
conducted by the OFDT and USMS. These data sets covered FY 2006
through FY 2010. According to OFDT data, between FY 2006 and FY 2010
the OFDT conducted 142 inspections that encompassed 47 unique
non-federal detention facilities. We obtained the inspection reports for each
of the 142 inspections and reviewed the results, paying particular attention
to the results of those facilities that were inspected multiple times in
consecutive years.

       Using data from the USMS, we identified the IGA facilities inspected by
the USMS between FY 2006 and FY 2010. We compared the USMS’s
inspections to the OFDT’s inspections to determine if the OFDT and USMS
had inspected the same facility during the same fiscal year. In those
instances where the OFDT and USMS inspected the same facility during the
same fiscal year, we reviewed each component’s inspection report to
determine if a facility was rated differently. For purposes of our analysis, we
considered the results of the same facility to be inconsistent if the USMS and
OFDT gave a facility a different rating on any specific element. For example,
if the OFDT indicated that a facility was deficient with the control of
contraband and the USMS said the facility was compliant in that area, then
we considered the facility to have received an inconsistent evaluation. We
also analyzed USMS data to identify any of its IGA facilities housing, on
average, at least 200 federal detainees per day that had not been inspected
during a given fiscal year of our review period.

       We did not perform an independent, overall assessment of the
reliability of the data provided because we used the data for informational
and contextual purposes to support our overall conclusions. The data did
not provide the sole basis of our findings.

      In addition, we researched an on-line legal database to determine if
DOJ had been subject to litigation associated with housing federal detainees
in unsafe, insecure, or inhumane non-federal detention facilities, and we
spoke to a DOJ official about DOJ’s legal liability. We also discussed with
executive management from the USMS and OFDT and a DOJ official DOJ’s
recent reorganization request that involved transferring the OFDT’s
functions.




                                    - 29 -
                                                                                        APPENDIX II
           UNITED STATES MARSHALS SERVICE RESPONSE
 
                                                      U.S. Department of Justice
 
                                                      United States Marshals Service
 
                                                      Office of the Associate Director for Operations
 
 
                                                      Alexandria, Virginia 22301-1025
 
 
 
                                                      December 7, 2012
 
 
 
 
MEMORANDUM:	            Raymond Beaudet
                        Assistant Inspector General for Audit
 
FROM:	                  David Harlow
                        Associate Director for Operations
 
SUBJECT: 	              Response to Draft Audit Report:
                        The Department of Justice's Oversight of
                        Non-Federal Detention Facility Inspections
 
 
 
     This is in response to correspondence from the Office of the Inspector General (OIG) requesting
comment on the recommendations associated with the subject audit report.

       We have reviewed the seven recommendations contained in the draft report and our responses
to Recommendations 1-6 are attached. Recommendation 7 is directed at the Office of the Deputy
Attorney General.

        We are pleased to report that actions for many of the recommendations contained in the draft
report are already underway. Should you have any questions or concerns regarding this response,
please contact Isabel Howell, Audit Liaison, at 202-307-9744.

Attachments

cc: 	   Louise Duhamel
        Acting Director, Audit Liaison Group
        Internal Review and Evaluation Office
        Justice Management Division

        Isabel Howell 

        External Audit Liaison 

        United States Marshals Service


                                                - 30 -
                             USMS Response to OIG Draft Report
                            Audit of the Department of Justice's Oversight
                            of Non-Federal Detention Facility Inspections
 
Recommendation 1: Establish and promulgate guidance on the standards to use when
conducting inspections of non-federal detention facilities and the depth to which these
inspections will be conducted.

USMS Response (Concur): With the merger of the operations of the Office of the Federal
Detention Trustee (OFDT) within the USMS, management will be adopting a more strategic
approach to consolidated detention operations, including inspections of non-federal detention
facilities, with the goal of maximizing the efficient and effective use of detention resources.
The Prisoner Operations Division (POD) has developed a project plan, consistent with USMS
                        1
strategic initiatives, to enhance and refine uniform monitoring policies and procedures and
assess and update the current Federal Performance Based Detention Standard (FPBDS).
 
Recommendation 2: Establish and promulgate guidance for a risk-based selection process
that includes a baseline number of facilities to be reviewed each year and how often
individual facilities should be inspected.
 
USMS Response (Concur; with clarification): With the merger of the operations of the OFDT
within the USMS, management will be adopting a more strategic approach to consolidated
detention operations, including inspections of non-federal detention facilities, with the goal of
maximizing the efficient and effective use of detention resources. Consistent with USMS
                        2
strategic initiatives, USMS will review and if necessary refine parameters for facility reviews,
including the frequency of reviews, supported by risk-based methodologies.
 
Recommendation 3: Establish and promulgate procedures for taking corrective action on
deficiencies identified during inspections of non-federal detention facilities.
 
USMS Response (Concur; with clarification): With the merger of the operations of the OFDT
within the USMS, management will be adopting a more strategic approach to consolidated
detention operations, including inspections of non-federal detention facilities, with the goal of
maximizing the efficient and effective use of detention resources. The USMS will review and
refine existing procedures to mitigate risk identified through the review process, to include
sharing best practices and identification of emerging trends.
 
Recommendation 4: Identify actively used non-federal facilities that have not been reviewed
in the last 3 fiscal years and prioritize these inspections as appropriate.
 
USMS Response (Concur): With the merger of the operations of the OFDT within the USMS,
management will be adopting a more strategic approach to consolidated detention operations,
including inspections of non-federal detention facilities, with the goal of maximizing the
 
1
    Strategy 3.3.1 Establish the parameters of IGA reviews; USMS Strategic Plan: 2012-2016.
2
    Strategy 3.3.1 Establish the parameters of IGA reviews; USMS Strategic Plan: 2012-2016.


                                                     - 31 -
efficient and effective use of detention resources. The USMS will identify all facilities that
have not been reviewed in the past three years and will assess whether a review will be
initiated in FY2013.

Recommendation 5: Develop a mechanism to track and monitor its inspection activities
accurately and adequately in order to assist in scheduling inspections, identifying
facilities in need of inspections, and analyzing the results of inspections.

USMS Response (Concur): With the merger of the operations of the OFDT within the
USMS, management will be adopting a more strategic approach to consolidated detention
operations, including inspections of non-federal detention facilities, with the goal of
maximizing the efficient and effective use of detention resources. The USMS has developed
                                                                         3
a project plan, consistent with USMS strategic initiative 3.3.2, which will likely expand
upon the current OFDT automated Facility Review Management System (FRMS), in order to
enhance tracking, scheduling, and analysis of facility reviews.

Recommendation 6: Determine if private facility contracts should be modified to allow
for less comprehensive inspections for contract compliance of facilities repeatedly
receiving acceptable ratings.

USMS Response (Concur): With the merger of the operations of the OFDT within the
USMS, management will be adopting a more strategic approach to consolidated detention
operations, including inspections of non-federal detention facilities, with the goal of
maximizing the efficient and effective use of detention resources. The USMS has developed
                                                                         4
a project plan, consistent with USMS strategic initiative 3.3.1, which will include the
evaluation of facility review requirements with respect to contract compliance and frequency
of reviews.
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
3
  Strategy 3.3.2 Automate the IGA review process to increase standardization, meet applicable regulations and
laws, and target areas for improvement; USMS Strategic Plan: 2012-2016.
4
    Strategy 3.3.1 Establish the parameters of IGA reviews; USMS Strategic Plan: 2012-2016.


                                                    - 32 -
                                                                                   APPENDIX III


      OFFICE OF THE DEPUTY ATTORNEY GENERAL RESPONSE

                                                          U.S. Department of Justice
 
 
                                                          Office of the Deputy Attorney General
 
 
 
 
 
                                                          Washington, D.C. 20530

                                                          December 19, 2012


    MEMORANDUM

    TO: 	                  Raymond J. Beaudet
                           Assistant Inspector General for Audit
                           U.S. Department of Justice

    THROUGH:	              Carol S. Taraszka
                           Regional Audit Manager
                           Chicago Regional Audit Office
                           Office of the Inspector General

    FROM:                 Armando O. Bonilla
                          Senior Counsel to the Deputy Attorney General

    SUBJECT:               Draft Audit Report- The Department of Justice's

                           Oversight of Non-Federal Detention Facility Inspections


           The Office of the Deputy Attorney General (ODAG), has reviewed the October 18, 2012
    draft audit report issued by the Office of the Inspector General (OIG) as well as the response
    submitted by the U.S. Marshals Service (USMS) on December 7, 2012. The purpose of this
    memoranda is to respond to the sole recommendation directed to ODAG:

    7. 	    Review the policies and procedures established by the USMS and ensure 

            that policies related to the inspection of non-federal detention facilities are 

            congruent throughout DOJ and are consistent with DOJ's expectations.


ODAG concurs with this recommendation. As stated by USMS throughout its December 7 , 2012
response: “With the merger of the operations of the Office of the Federal Detention Trustee
(OFDT) within the USMS, management will be adopting a more strategic approach to
consolidated detention operations, including inspections of non-federal detention facilities,
with the goal of maximizing the efficient and effective use of detention resources.” As the
OFDT-USMS merger continues to be implemented, ODAG will review the policies and




                                                 - 33 -
procedures established by USMS to ensure that policies related to the inspection of non-federal
detention facilities are congruent throughout DOJ and are consistent with DOJ's expectations.

    cc:	   Eben Morales, USMS Acting Associate Director for Operations

           Donald O'Hearn, USMS Chief of Staff 

 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
                                                  -2-




                                               - 34 -
                                                             APPENDIX IV 



             OFFICE OF THE INSPECTOR GENERAL 

            ANALYSIS AND SUMMARY OF ACTIONS

              NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to the USMS and the
ODAG. The USMS’s response is incorporated in Appendix II of this final
report, and the ODAG’s response is incorporated in Appendix III. The
following provides the OIG analysis of the responses and summary of actions
necessary to close the report.

Recommendation Number:

  1. Resolved. The USMS concurred with our recommendation to
     establish and promulgate guidance on the standards to use when
     conducting inspections of non-federal detention facilities and the depth
     to which these inspections will be conducted. The USMS stated in its
     response that USMS management will adopt a more strategic approach
     to consolidate detention operations with the merger of the OFDT’s
     operations into the USMS. The USMS stated that the strategic
     approach will include a review of the process for inspecting non-federal
     detention facilities with the goal of maximizing the efficient and
     effective use of detention resources. The USMS also stated that it
     developed a project plan to enhance and refine uniform monitoring
     policies and procedures, as well as to assess and update the current
     Federal Performance-Based Detention Standards.

     This recommendation can be closed when the USMS provides evidence
     that it has established and promulgated guidelines on the standards to
     use when conducting inspections of non-federal detention facilities and
     the depth to which these inspections will be conducted. The USMS
     should also provide a copy of the project plan developed by the USMS
     Prisoner Operations Division.

  2. Resolved. The USMS concurred with our recommendation to
     establish and promulgate guidance for a risk-based selection process
     that includes a baseline number of facilities to be reviewed each year
     and how often individual facilities should be inspected. The USMS
     stated in its response that USMS management will adopt a more
     strategic approach to consolidate detention operations with the merger
     of the OFDT’s operations into the USMS. The USMS further stated that
     it will review the parameters used for selecting facilities to inspect,
     including the frequency of the inspections, and will revise those




                                   - 35 -
   parameters if necessary to ensure the selection process uses risk-
   based methodologies.

   This recommendation can be closed when we receive evidence that the
   USMS has established and promulgated guidance for a risk-based
   selection process that includes a baseline number of facilities to be
   reviewed each year and how often individual facilities should be
   inspected.

3. Resolved. The USMS concurred with our recommendation to
   establish and promulgate procedures for taking corrective action on
   deficiencies identified during inspections of non-federal detention
   facilities. The USMS stated in its response that USMS management
   will adopt a more strategic approach to consolidate detention
   operations with the merger of the OFDT’s operations into the USMS.
   The USMS further stated that it will review and refine existing
   procedures to mitigate risks identified through the review process,
   including the sharing of best practices and the identification of
   emerging trends.

   This recommendation can be closed when the USMS provides evidence
   that it has established and promulgated procedures for taking
   corrective action on deficiencies identified during inspections of non-
   federal detention facilities.

4. Resolved. The USMS concurred with our recommendation to identify
   actively used non-federal detention facilities that have not been
   reviewed in the last 3 fiscal years and prioritize these inspections as
   appropriate. The USMS stated in its response that USMS management
   will adopt a more strategic approach to consolidate detention
   operations with the merger of the OFDT’s operations into the USMS.
   The USMS further stated that it will identify all facilities that have not
   been reviewed in the past 3 years and will assess whether a review will
   be initiated in FY 2013.

   This recommendation can be closed when the USMS provides evidence
   that it reviewed the inspections conducted of actively used facilities
   and identified any non-federal detention facilities that have not been
   inspected during the past 3 fiscal years. If such facilities were
   identified, please provide evidence that the USMS prioritized
   inspections of these facilities as appropriate.

5. Resolved. The USMS concurred with our recommendation to develop
   a mechanism to track and monitor its inspection activities accurately


                                 - 36 -
   and adequately in order to assist in scheduling inspections, identifying
   facilities in need of inspections, and analyzing the results of
   inspections. The USMS stated in its response that USMS management
   will adopt a more strategic approach to consolidate detention
   operations with the merger of the OFDT’s operations into the USMS.
   The USMS further stated that it has developed a project plan and that
   the plan will likely expand upon the OFDT’s automated Facility Review
   Management System to enhance tracking, scheduling, and analysis of
   facility reviews.

   This recommendation can be closed when the USMS provides evidence
   that it has developed and is using a mechanism to accurately and
   adequately track and monitor its inspection activities to assist in
   scheduling inspections, identifying facilities in need of inspections, and
   analyzing the results of inspections.

6. Resolved. The USMS concurred with our recommendation to
   determine if private facility contracts should be modified to allow for
   less comprehensive inspections for contract compliance of facilities
   repeatedly receiving acceptable ratings. The USMS stated in its
   response that USMS management will adopt a more strategic approach
   to consolidate detention operations with the merger of the OFDT’s
   operations into the USMS. The USMS further stated that it has
   developed a project plan and that the plan will include an evaluation of
   facility review requirements regarding contract compliance and the
   frequency of reviews.

   This recommendation can be closed when the USMS provides
   documentation on its determination if private facility contracts should
   be modified to allow for less comprehensive inspections for contract
   compliance of facilities repeatedly receiving acceptable ratings.

7. Resolved. The ODAG concurred with our recommendation to review
   the policies and procedures established by the USMS and ensure that
   policies related to the inspection of non-federal detention facilities are
   congruent throughout DOJ and are consistent with DOJ’s expectations.
   The ODAG stated in its response that as the merger of the OFDT’s
   operations within the USMS continues to be implemented, the ODAG
   will review the policies and procedures established by the USMS. The
   ODAG also stated that it will ensure the established policies are
   congruent throughout DOJ and are consistent with DOJ’s expectations.

   This recommendation can be closed when the ODAG provides evidence
   that it has reviewed the USMS’s established policies and procedures


                                  - 37 -
and that the ODAG has ensured the policies related to the inspection of
non-federal detention facilities are congruent throughout DOJ and are
consistent with DOJ’s expectations.




                             - 38 -
